              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department’s Efforts to Implement
Common Information Technology
Services at Headquarters




DOE/IG-0763                                 March 2007
                          Department of Energy
                               Vvashlngton,         C j i   iu565

                               March 3 0 , 2007
MEMORANDUM FOR THCSECRETARY

FROM:
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department's
                          Efforts to Implement Common Information Technology
                          Services at Headquarters"

BACKGROUND

The Department of Energy invested more than $980 million on consolidated
infrastn~cture,office automation, and telecommunications in Fiscal Year (FY) 2006.
In an effort to increase efficiency and purchasing power and reduce overall
expenditures, the Department launched an initiative in FY 2003 to consolidate all
aspects of common information technology (IT) systems including: computer
desktop support, application hosting, and equipment distribution services that had
previously been managed separately by various Headquarters organizations. The
initiative, originally known as the Extended Common Integrated Technology
Environment, is now known as the Department of Energy's Common Operating
Environment (DOE-COE).

5OE-COE w a s based largely on a Secretarial initiative to implement a single,
integrated IT infrastructure across the Department. In the first phase of that effort, the
Chief Information Officer was tasked with consolidating information technology
services and providing standard desktop, e-mail, and related services at Headquarters.
Because of the importance of the project to improving the economy and efficiency of
the information technology environment, we conducted this audit to determine
whether the DOE-COE initiative was meeting planned goals and objectives.

RESULTS OF AUDIT

Although the Department had made progress in implementing DOE-COE at
Headquarters, it had not fully achieved the goals and objectives envisioned by the
original initiative. In particular, we observed that:

       Five major organizations, accounting for 40 percent (2,473 of 6,199) of the
       total potential user population, were not migrated to the common operating
       envirorlment within the first year as planned, thereby preventing realization of
       the full $1 5 million of first year savings through expected economies of scale;
       and,

       For certain organizations in which implementation was completed, services
       were not disabled for terminated employees in a timely manner, resulting in
       the payment of over $700,000 in unnecessary user fees and creating potential
       cvber secuntv vulnerabilities.
         2



                                 Prllltcd wlth soy ~ n kon rtcyclcd p:lpcr
These problems occurred because officials responsible for implementation did not
always follow Department and Federal project management practices, such as
developing formal migration plans and conducting requirements analyses. In
addition, procedures relating to user account termination were not adequate. As a
consequence, the Department was unable to conlplete the Headquarters conversion
within established timeframes and is unlikely to realize originally anticipated cost
savings.

To its credit, the Office of the Chief Information Officer (OCIO) has accomplished
some of the project's goals. For example, 23 of 28 Headquarters organizations -
representing 60 percent of the potential users - had been migrated within 12 months
of implementation. IT hardware was also procured at a lower price than that of the
General Services Administration's Supply Schedule and standardization of a number
of platforms and applications had taken place. While these are positive steps,
additional action is necessary to ensure that all consolidation objectives are satisfied.
As such, we have made recommendations designed to help improve the continuing
implementation and operation of the DOE-COE initiative.

Although the scope of our review was limited to Headquarters, resolving the issues
identified in our report may be critical to the success of the Department's planned
extension of the common operating environment to field activities. That effort,
according to an OCIO official, is scheduled to be completed 18 months from the date
that a support service contractor is selected and will involve Federal systems at most
of the Department's sites. Given that this contracting process is underway, the
Department needs to ensure that all implementation issues are understood and
resolved prior to proceeding.

MANAGEMENT REACTION

The OCIO provided comments to the draft and concurred with the report's findings
and recommendations. They indicated that steps had been taken relative to our
recommendations and that envisioned economies of scale from these efforts are
beginning to be realized. Management also indicated that emphasis is being placed
on disabling and closing accounts in a timely manner and on ensuring that program
organizations understand the implications of not doing so.

Management's comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Administrator, National IVuclear Security Administration
    llnder Secretary for Science
    Acting Under Secretary of Energy
    Chief of Staff
    Chief Information Officer
REPORT ON THE DEPARTMENT'S EFFORTS TO IMPLEMENT
COMMON INFORMATION TECHNOLOGY SERVICES AT
HEADQUARTERS


TABLE OF
CONTENTS

              Consolidation of Information Technoloqy Services

              Details of Finding ...................................................................1

              Recommendations and Comments ..........................................6


              Appendices

              I . Objective, Scope, and Methodology ..................................8

              2. Prior Repol-ts ....................................................................I0

              3. Management Comments .................................................. 12
CONSOLIDATION OF INFORMATION TECHNOLOGY SERVICES

Goals and Objectives   While the Department of Energy (Department) had made
                       progress toward implementing the initiative at
                       Headquarters, it had not fully satisfied several significant
                       goals and objectives. Specifically, the Department had not
                       migrated the National Nuclear Security Administration
                       (NNSA) and four other major organizations within
                       established timeframes. We also noted that the Department
                       of Energy's Common Operating Environment (DOE-COE)
                       services were not always being terminated for departing
                       employees in a timely fashion.

                                Migration of Headquarters Organizations

                       The Office of the Chief Information Officer (OCIO) did not
                       meet its goal of migrating all Headquarters organizations to
                       DOE-COE within the first year. As originally conceived,
                       DOE-COE services were to have been fully implemented at
                       Headquarters within 12 months of project inception –
                       October 2003. However, as of September 2006, the OCIO
                       had been unable to fully complete the migration of NNSA,
                       and the Offices of Science (Science), Civilian Radioactive
                       Waste Management (OCRWM), and Energy Efficiency and
                       Renewable Energy (Energy Efficiency). According to an
                       OCIO official, these remaining organizations, for which
                       implementation remained incomplete, represented about 34
                       percent (2,123 of 6,199 users) of the total potential
                       population at Headquarters.

                       Despite the Deputy Secretary reaffirming his commitment
                       to the DOE-COE initiative and requiring the
                       implementation of a single integrated information
                       technology (IT) environment, several organizations resisted
                       participation in the initiative. The original concept of the
                       initiative, to facilitate savings through consolidation, called
                       for each participating organization to provide previously
                       allocated IT funding to the OCIO in return for delivery of
                       needed services. However, certain organizations were
                       reluctant to participate, citing concerns about the cost and
                       quality of services provided versus providing those services
                       themselves. In particular:

                          •   A Science official indicated that his program could
                              provide IT services cheaper and at a greater level of
                              satisfaction than the OCIO. Based on that belief,
                              the Director, Office of Science, attempted to retain
                              separate IT support services for his office rather
                              than migrate. Even though the request was
________________________________________________________________
Page 1                                            Details of Finding
                             disapproved, Science has yet to agree to a migration
                             plan. At the conclusion of our field work, we noted
                             that the OCIO had developed and provided Science
                             with a proposed migration plan; however, while
                             negotiations are currently on-going, Science has not
                             yet accepted this plan.

                         •   NNSA was also reluctant to migrate to DOE-COE.
                             Even though cyber security protections were
                             sufficient to satisfy 23 of 28 organizations and the
                             costs of migrating individual users at Headquarters
                             was well known, an NNSA official indicated that
                             they would not agree to implementation until its
                             security concerns were addressed and until NNSA
                             knew what the services would cost – including the
                             costs to support their field offices. During our
                             discussions with OCIO officials, we learned NNSA
                             accepted a plan and completed migration of its
                             Headquarters personnel by the end of January 2007.

                      The migrations of the remaining two organizations had also
                      been significantly delayed. OCRWM and Energy
                      Efficiency had originally been scheduled – as the other
                      organizations – to be migrated within the first 12 months of
                      project inception. However, migration plans for these
                      organizations were not even developed until July 2006.
                      The plan of action and milestones for OCRWM called for
                      full migration by mid-August 2006. This target date was
                      later moved to the end of November 2006, then to
                      December, but by the end of January 2007, OCRWM's
                      migration was not fully complete. While a specific date
                      had not been set by the OCIO for migration of Energy
                      Efficiency, it is projected to occur sometime in Fiscal Year
                      2007.

                                      User Account Management

                      User accounts and DOE-COE services were not always
                      suspended for terminated employees in a timely manner.
                      Our analysis revealed that, as of May 2006, 165 former
                      Federal and contractor employees still had active user
                      accounts even though their association with the Department
                      had ended. The chart below summarizes the number of
                      accounts open following the employees' departure from the
                      Department.



________________________________________________________________
Page 2                                            Details of Finding
                         Months                 Number of               Cost of
                       Outstanding              Accounts               Accounts
                             ≤2                     8                     4,500
                            3 to 6                 27                    36,600
                           7 to 10                 20                    51,300
                           11 to 16                10                    42,000
                           17 to 20                78                   414,900
                           21 to 26                16                   106,200
                           27 to 32                 6                    51,000
                       Total                      165                  $706,500

                      Since Department organizations are obligated to pay for
                      DOE-COE services of active accounts at the rate of $300
                      per month, over $700,000 was unnecessarily incurred for
                      these users. Presumably, users with active accounts also
                      could have been able to access the Department's systems,
                      obtain data to which they were not entitled, and, as trusted
                      users, introduce malicious programs such as viruses or
                      trojans. Once notified of the results of our testing,
                      management initiated action to disable the unneeded
                      accounts.

Implementation and    Project implementation and operation issues existed,
Operating Practices   at least in part, because officials had not always adhered to
                      Department and Federal project management practices
                      when implementing the initiative. In addition, adequate
                      user account termination procedures had not been
                      developed.

                                     Project Management Practices

                      Efforts to complete migrations to the common operating
                      environment within the initiative's first year of operation
                      were not completed because the OCIO officials had not
                      always followed Departmental and Federal project
                      management practices. Specifically, formal migration
                      plans were not always developed prior to the beginning of
                      project implementation – in some cases migrations plans
                      were not developed until three years after migration had
                      begun – and organizational and functional requirement
                      analyses were not always conducted as required. As
                      outlined in Departmental guidance, plans such as these are
                      essential to guiding project execution and achieving
                      initiative goals. Until recently, formal migration plans for
                      some individual organizations had not been prepared.
                      Migration plans should have contained details on work

________________________________________________________________
Page 3                                            Details of Finding
                      scope and projections regarding resources and schedules.
                      While migration plans for Science, NNSA, Energy
                      Efficiency, and OCRWM have now been developed, not all
                      of them have been fully implemented. For example, as
                      noted earlier, a proposed migration plan for Science was
                      developed by the OCIO and presented in January 2007, but
                      Science has yet to agree to implementation. Negotiations
                      between the Science and the OCIO are ongoing.

                      Organizational and functional requirements analyses,
                      required by DOE Order 413.3, also were not conducted
                      prior to the implementation of the initiative. These
                      analyses could have identified organization specific issues
                      and problems in advance and could have allowed for
                      individual tailoring of migration plans. For example, had
                      such an analysis been completed for NNSA, their stated
                      concerns might have been addressed prior to the
                      Departments transition to DOE-COE. Instead, these
                      concerns did not surface until the initiative was well
                      underway.

                      Another factor that may have affected the willingness of
                      organizations to migrate their systems within the originally
                      prescribed window was the lack of a complete systems
                      lifecycle cost benefit analysis. At the inception of the
                      project, the OCIO only provided an estimated cost savings
                      for the first year of the initiative, and did not estimate
                      savings that the initiative was expected to realize over its
                      lifecycle. A cost benefit analysis, required by
                      documentation supporting DOE Order 200.1, would have
                      assisted organizations in understanding the benefits of
                      accepting the initiative, helped during budget planning and
                      execution, and may have ensured a timely migration to the
                      common operating environment.

                                   Account Termination Procedures

                      Services for departing employees and contractors were not
                      always terminated in a timely manner because employee
                      departure procedures were either not effective or did not
                      exist. While procedures required that program officials
                      notify the OCIO of an employee's departure, an additional
                      control to ensure that notification was made – linking the
                      notification to the employee departure clearance or
                      checkout process – was not always effective in the case of
                      Federal employees and did not exist for contractors. Even
                      though the Office of Human Capital Management
________________________________________________________________
Page 4                                            Details of Finding
                      developed a checklist requiring the OCIO to be notified of
                      an employee's departure, specifically in the area of account
                      access, accounts for 44 Federal employees were not
                      terminated as required. As is evident by the number of
                      contractor accounts that had not been disabled as required –
                      121 or about 73 percent of the total active accounts we
                      discovered – a formal checkout process was not in place for
                      contractors. An OCIO official indicated that user accounts
                      were normally kept open for 60 days – a potentially risky
                      practice not outlined in current procedures.

Use of Resources      Because of implementation delays, the Department did not
                      realize the anticipated savings of $15 million in the first
                      year of DOE-COE and has not actively tracked program
                      savings in subsequent years. Without full migration, the
                      Department will continue to miss opportunities for cost
                      savings. The Department's organizations also incurred
                      unnecessary costs of about $700,000 over the last two years
                      for active, but unneeded user accounts. Absent
                      improvements in procedures, the Department could incur
                      similar costs in the future from failing to terminate user
                      accounts in a timely manner. Additionally, user account
                      terminations are directly related to how IT assets are
                      retrieved by the OCIO. Failure to retrieve IT assets in a
                      timely manner could result in equipment not being
                      available for re-distribution to new users. Furthermore, as
                      previously noted, the existence of the user accounts in
                      question could pose a cyber security risk to the Department
                      by allowing unauthorized access to and use of information
                      resources.

Follow-on Efforts     The Department has announced that it plans to extend its
                      common operating environment to field activities. This
                      effort will involve providing services similar to those
                      deployed under the DOE-COE initiative to Federal
                      personnel at most of the Department's sites. This phase of
                      the effort is scheduled to be completed 18 months after the
                      selection of a support contractor. Although the scope of
                      our review was limited to Headquarters, the issues we
                      identified are relevant to the upcoming effort and may be
                      critical to a successful and timely deployment. Given the
                      scope of this ambitious effort, the Department needs to
                      ensure that all DOE-COE implementation issues are
                      understood and resolved before proceeding.




________________________________________________________________
Page 5                                            Details of Finding
RECOMMENDATIONS      To address issues with DOE-COE implementation, we
                     recommend that the OCIO, in conjunction with responsible
                     NNSA and other program officials:

                     1. Complete the Headquarters migration to DOE-COE.
                        To facilitate this effort, ensure that:

                             a. Migration plans are completed; and,

                             b. Requirements analyses are conducted.

                     2. Prior to extending the initiative to the field, ensure that:

                             a. Formal migration plans are developed;

                             b. Functional requirements analyses are conducted;
                                and,

                             c.   Cost benefit analyses are performed.

                     3. Revise account management procedures to ensure
                        account termination in a timely manner.


MANAGEMENT           Management concurred with our findings and
REACTION             recommendations and indicated that proactive steps had
                     been taken, or are planned relative to our recommendations.
                     Specifically, in their response to a draft of this report and in
                     subsequent technical comments, the OCIO acknowledged
                     the need to complete migration plans and conduct a
                     comprehensive requirements analysis in order to facilitate
                     the conversion of the remaining organizations.

                     The OCIO added that 80 percent of the user population has
                     now migrated to the Common Operating Environment. A
                     plan for EE is expected to be completed by June 2007, with
                     migration December 2007. The final office, Science, will
                     be migrated as soon as Science management agrees to do
                     so. In addition, the OCIO committed to developing formal
                     migration plans, requirement analyses, and cost benefit
                     analyses prior to extending this initiative to the
                     Department's field locations. Finally, the OCIO indicated
                     that actions had been recently taken to remove user account
                     access in a timely manner through the establishment of
                     additional policy, improvement of existing procedures,
                     and/or frequent verification and validation of user account
                     access.
________________________________________________________________
Page 6                              Recommendations and Comments
                     Related to the unnecessary user costs, the OCIO noted that
                     these charges may have occurred because responsible
                     officials did not always notify them of employee departures
                     or because inactive workstations might have been
                     transitioned into "offices of convenience" within that
                     organization.


AUDITOR              Management's comments, including corrective actions
COMMENTS             taken and planned, are responsive to our recommendations.

                     Management's comments to the draft report are included in
                     their entirety as Appendix 3.




________________________________________________________________
Page 7                              Recommendations and Comments
Appendix 1


OBJECTIVE                To determine whether the Department of Energy's
                         (Department) Common Operating Environment (DOE-
                         COE) initiative was being effectively managed and was
                         meeting Department goals and objectives.


SCOPE                    This audit was performed between December 2005 and
                         January 2007 at Departmental Headquarters in Washington,
                         DC, and Germantown, MD.


METHODOLOGY              To accomplish our audit objective, we:

                            •   Reviewed applicable laws and regulations
                                pertaining to development of the DOE-COE
                                initiative. We also reviewed guidance issued by the
                                Office of Management and Budget;

                            •   Reviewed reports issued by the Office of Inspector
                                General and by the Government Accountability
                                Office;

                            •   Reviewed numerous documents related to the
                                Department's DOE-COE initiative;

                            •   Held discussions with organizational officials and
                                personnel from Department of Energy
                                Headquarters, including representatives from the
                                Offices of the Chief Information Officer, Science,
                                Environmental Management, Fossil Energy, Energy
                                Efficiency and Renewable Energy,
                                Counterintelligence, Intelligence, Civilian
                                Radioactive Waste Management, Legacy
                                Management, Hearings and Appeals, General
                                Counsel, Environment, Safety and Health,
                                Economic Impact and Diversity, Board of Contract
                                Appeals, Inspector General, and the National
                                Nuclear Security Administration, the Energy
                                Information Administration, and the Departmental
                                Representative to the Defense Nuclear Facilities
                                Safety Board; and,

                            •
                           Reviewed the Government Performance and Results
                           Act of 1993 to determine if performance measures
                           had been established for managing and developing
                           the initiative.
________________________________________________________________
Page 8                                  Objective, Scope, and Methodology
Appendix 1 (continued)


                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included a test of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, we
                      assessed internal controls regarding implementation of the
                      DOE-COE initiative, management of the Application
                      Hosting Environment, user account termination, customer
                      service, and asset management. However, the audit report
                      does not necessarily disclose all internal control
                      deficiencies that may have existed at the time of our audit.
                      While we did not rely solely on computer-processed data to
                      satisfy our audit objective, we confirmed the validity of
                      such data, when appropriate, by reviewing supporting
                      source documents such as user lists, payment remittances,
                      and invoices.

                      An exit conference was held on March 27, 2007, with
                      officials from the Office of the Chief Information Officer.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 2

                                   PRIOR REPORTS


  •   Information Technology Support Services at the Department of Energy's Operating
      Contractors, (DOE/IG-0725, April 2006). The audit report found that while the
      Department of Energy (Department) had initiated action to consolidate requirements
      for services provided to Federal employees, it continues to face a number of
      challenges related to contractor procured or furnished information technology (IT)
      support services. The report states that although the Department had initiated action
      to consolidate Federal IT support services by implementing its Extended Common
      Integrated Technology Environment Program, it had not established a comprehensive
      framework which would provide a corporate-wide approach to providing IT support
      services that included contractor-managed sites. Without such a framework, the
      Department did not require contractors to adopt other available methods for reducing
      costs such as coordinating with established consortium buying groups to consolidate
      demand and obtain volume discounts. Consequently, the Department lacked an
      effective means of managing and controlling contractor IT support services costs.
      The report concluded that there is a potential for significant cost savings at the
      Department's numerous contractor-managed sites through better management and
      control of IT support services.

  •   Management of the Department's Desktop Computer Software Enterprise License
      Agreements, (DOE/IG-0718, January 2006). The audit found that the Department had
      not adequately managed the acquisition and maintenance of desktop computer
      software licenses. The report states that the Department spent more than $4 million
      more than necessary over the last five years to acquire and maintain desktop software.
      In particular, the report found that enterprise agreements for common products such
      as security and antivirus software had not been established. According to the report,
      the Department had not established a complex-wide desktop software acquisition and
      maintenance strategy.

  •   Development and Implementation of the Department's Enterprise Architecture,
      (DOE/IG-0686, April 2005). This audit found that the Department had not fully
      defined its current or future information technology requirements, essential elements
      if architecture is to be an effective tool in managing information technology
      investments. In particular, the Department had not defined the roles, responsibilities,
      and authorities necessary to develop and implement a Department-wide architecture.
      Further, the Department did not have a formal program plan that established the
      scope, schedule, and cost of the development effort; nor, had it established
      performance goals to measure progress toward the development of architecture.
      Consequently, since 1998, Office of Inspector General reports have shown that the
      lack of an enterprise architecture contributed to more than $155 million in lost
      opportunities for information technology-related savings.


___________________________________________________________________
Page 10                                                Prior Reports
Appendix 2 (continued)


  •   Information Technology Support Services Contracts, (DOE/IG-0516, August 2001).
      The audit found that the Department did not have a comprehensive framework for
      acquiring IT support services. Therefore, the Department was not effectively
      managing the acquisition of IT support services. For example, Headquarters and field
      elements did not consolidate requirements and routinely resorted to open-market
      procurements without formally considering the use of existing Federal contracts.
      Despite requirements in the Clinger-Cohen Act, the Department had not developed
      and implemented a framework for acquiring IT support services in an efficient and
      cost-effective manner. If the Department adopted an enterprise-wide approach to
      acquiring IT support services, significant savings, as much as $44 million over a three
      year period, may be possible.

  •   Corporate and Stand-Alone Information Systems Development, (DOE/IG-0485,
      September 2000). The audit found that duplicative and/or redundant computer
      systems exist or are under development at virtually all organizational levels, corporate
      and Federal, within the Department. The Department had not fully developed and
      implemented an application software investment strategy designed to reduce or
      eliminate duplicative systems. As a result, the Department spent at least $38 million
      developing duplicative information systems.

  •   Commercial Off-the-Shelf Software Acquisition Framework, (DOE/IG-0463, March
      2000). The Department had not developed and implemented software standards or
      effectively used enterprise-wide contracts, key components of a Commercial Off-the
      Shelf acquisition framework. Therefore, departmental offices acquired application
      and operating system software that varied in type and price and duplicated
      procurement efforts by awarding and managing multiple contracts for the same
      product. The Department's inability to establish a framework was due to its
      decentralized information technology strategy and a lack of organizational support.
      The Department has not taken advantage of enterprise-wide software contracts that
      could result in savings of about $38 million over five years for just one of its major
      desktop software suites. The audit also found that the use of enterprise-wide
      contracts for other required applications could also significantly increase savings.




___________________________________________________________________
Page 11                                                 Prior Reports
Appendix 3




___________________________________________________________________
Page 12                                        Management Comments
                                                             IG Report No. DOE/IG-0763

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
